HHS/OIG, Audit - "Review of Medicare Inpatient Wage Rate Assignment at
Hackettstown Regional Medical Center, Hackettstown, New Jersey," (A-03-05-00005)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Inpatient Wage Rate Assignment at
Hackettstown Regional Medical Center, Hackettstown, New Jersey," (A-03-05-00005)
March 30, 2006
Complete
Text of Report is available in PDF format (1.6 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether
Hackettstown Regional Medical Center (the hospital) complied with Medicare
requirements for reporting wage data in its fiscal year (FY) 2003 Medicare cost
report.  The hospital did not fully comply with Medicare requirements for
reporting wage data in its FY 2003 Medicare cost report.  Specifically, the
hospital overstated its wage data by $311,908 and understated hours by 1,865.
We recommended that the hospital: (1) submit a revised FY 2003 Medicare cost
report; and (2) implement review and reconciliation procedures to ensure that
the wage data reported on future Medicare cost reports are accurate,
supportable, and in compliance with Medicare requirements.  In its written
comments on our draft report, the hospital concurred with our findings and
recommendations.